U.S. Department of Agriculture
 Office of Inspector General
      Northeast Region
         Audit Report

  FOOD AND NUTRITION SERVICE
     ELECTRONIC BENEFITS
       TRANSFER SYSTEM
  NATIONAL OFFICE OVERSIGHT




              Audit Report No.
              27099-11-Hy
              January 2001
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250


DATE:         January 24, 2001

REPLY TO
ATTN OF:      27099-11-Hy

SUBJECT:      Electronic Benefits Transfer System – National Office Oversight

TO:           George A. Braley
              Acting Administrator
              Food and Nutrition Service

ATTN:         Lou Pastura
              Director
              Grants Management Division


This report presents the results of the subject audit. The Food and Nutrition Service’s
(FNS) December 21, 2000, response to the official draft report is included as Exhibit D with
excerpts and the Office of Inspector General’s (OIG) position incorporated into the
Findings and Recommendations section of the report.

We concur with the agency’s management decision for Recommendation Nos. 1, 2, 3,
and 5. We do not agree with FNS’ management decision for Recommendation No. 4 and
request additional action as outlined in the OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframe for implementing the
corrective actions on the recommendation for which management decision has not yet
been reached. Please note that the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.     Follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

We appreciate the cooperation and assistance provided the OIG staff during the audit.


        /s/


JAMES R. EBBITT
Assistant Inspector General
  for Audit
                        EXECUTIVE SUMMARY
                  ELECTRONIC BENEFITS TRANSFER SYSTEM
                       NATIONAL OFFICE OVERSIGHT
                      AUDIT REPORT NO. 27099-11-HY


                                     The overall objective of this audit was to provide
      RESULTS IN BRIEF               an evaluation of the adequacy of established
                                     Electronic Benefits Transfer (EBT) system
                                     controls and an assessment on whether
         controls function as designed. We identified internal controls established in
         key operational areas, included tests to ensure controls were in place and
         operated as designed, and assessed the adequacy of prescribed controls.

            Actions taken by Food and Nutrition Service (FNS) on the prior nationwide
            EBT audit recommendations, Monitoring of the EBT System Development
            and Implementation, Evaluation No. 27801-03-Hy, dated September 1996,
            were generally adequate. FNS approved waivers and made necessary
            changes to FNS regulations, policies, and forms to facilitate implementation
            of EBT. To address, in part, continuing problems identified in Office of
            Inspector General (OIG) audit reports related to issuance data reported to
            FNS by States, FNS implemented, in fiscal year (FY) 1999, EBT
            reconciliation guidance for State Agencies (SAs).

            As required by the Welfare Reform Act, FNS is working to ensure that all
            States implement a system to deliver Food Stamp Program (FSP) benefits
            by FY 2002. FNS continues to work with States to improve EBT by assuring
            that retailers are entered into, or removed from, the EBT systems timely and
            accurately through the use of the Retailer Electronic Data Exchange
            (REDE); as well as working with States to allow access to program benefits,
            nationwide. FNS has also provided technical assistance to States in
            implementing EBT. Between the period October 1984 and January 2001,
            42 SAs implemented EBT systems to deliver FSP benefits.

            Overall, State EBT systems are functioning as prescribed in 7 Code of
            Federal Regulations (CFR) §274.12. However, as EBT continues to expand
            nationwide, FNS needs to strengthen controls over EBT benefit data
            reported to FNS and access controls to EBT systems at States. Specifically,

            •   Obligations at fiscal year end are not accurately reflected in FNS’
                accounting records because FNS’ methodology, used in the fiscal year
                integrity calculation, for reporting redemptions is flawed. FNS reduces

USDA/OIG-A/27099-11-Hy                                                           Page i
               the current year’s food stamp issuance by the amount of benefits
               reported by States as expunged. Benefits are no longer available for use
               and are required to be expunged when they have not been accessed for
               one year, unless a waiver has been approved for a shorter duration.
               FNS’ methodology results in current year’s obligations of food stamp
               benefits being understated and prior year’s obligations remaining in the
               accounting system when they are no longer available to recipients.

           •   States have not always reported the proper amount of expunged food
               stamp benefits within the required timeframes nor has FNS adequately
               monitored reported expungement data for reasonableness.             We
               identified 22 States who reported an unreasonable amount of expunged
               benefits or who reported no expunged benefits in FY 1999. States
               reported more than $61.7 million of FSP benefits as expunged in
               FY 1999. As a result, obligations for food stamp benefits, for FY 1999,
               were overstated by $2.5 million in FNS’ accounting system.

           •   We reported in OIG audit report, The Implementation of the AMA
               System, Audit No. 27099-04-Hy, dated September 1997, that the
               Account Management Agent (AMA) system design permits the EBT
               processor to adjust issuance without obtaining State approval. FNS
               subsequently required EBT processors to utilize batch processing to
               minimize the number and amount of necessary adjustments. Batch
               processing is when batches of transactions are accumulated and
               processed as a group, electronically. However, batch processing does
               not prevent the EBT processor from posting unauthorized adjustments to
               the AMA system. Additionally, the EBT processor has an excessive
               amount of time to make corrections to previously reported issuance data.
               FNS policy allows States to report corrections to EBT issuance for
               90 days, the same time period allowed for food coupons. In the coupon
               environment, 90 days was a reasonable length of time because issuance
               information had to be collected from numerous field sites and then the
               data compiled and verified by the State, all of which took an extensive
               amount of time. EBT is an automated process and a reconciliation of
               daily issuance is required to be performed. As a result of the design of
               AMA, EBT processors can gain access to a larger amount of Federal
               funds than authorized by the State. We reported this vulnerability in our
               prior audits on FNS’ financial statements.

           •   Procedures for reviewing access to State EBT systems continue to need
               strengthening. This problem was also identified in the prior nationwide
               EBT report, Evaluation No. 27801-03-Hy. FNS’ actions to improve this
               control weakness have not been effective. We subsequently reported in
               seven State audit reports that user’s last access to the system had not

USDA/OIG-A/27099-11-Hy                                                          Page ii
                been adequately monitored nor were terminated employees’ access to
                the EBT system always removed.             We identified more than
                180 individuals whose access to a State EBT system should be removed
                because their job duties had changed or they were no longer employed
                by the State. As a result, unauthorized access to FSP benefits may not
                be prevented or detected.

                                       We recommend that FNS modify the existing
  KEY RECOMMENDATIONS                  manual fiscal year integrity calculation;
                                       implement a system to review reported
                                       expungement         data;     expedite       the
         implementation of an enhancement to AMA that requires prior approval by
         the State of all processor-initiated adjustments; modify the time period, to a
         maximum of 30 days, that States and EBT processors have for making
         corrections to FSP issuance data; and require the SA to periodically review
         system access and identify those individuals who no longer have a need and
         immediately delete their access.

                                      FNS officials generally agreed with the audit
     AGENCY RESPONSE                  recommendations.            They      suggested
                                      modification to two recommendations. FNS
                                      proposed writing to each State EBT manager
         and FSP director, directing them to tighten existing controls over EBT
         access, by conducting semi-annual reviews of employee access and by
         raising the level of awareness regarding the importance of reviewing system
         access, rather than regulating down to the level of periodic logon ID review.
         FNS also proposed allowing EBT processors 60 days, rather than the
         recommended 30 days, for modifying corrections to FSP issuance.

            FNS also believes that the General Comment, to develop program
            regulations in the Special Supplemental Nutrition Program for Women,
            Infants, and Children (WIC ) program for EBT systems, was premature
            considering that there are currently only three operational WIC program EBT
            pilots and they do not have sufficient knowledge concerning needed system
            requirements.




USDA/OIG-A/27099-11-Hy                                                         Page iii
                                       OIG generally agreed with FNS’ proposed
        OIG POSITION                   actions    for    implementing      the      audit
                                       recommendations.       We agree with FNS’
                                       suggested change for improving EBT system
          access controls. We do not agree with FNS’ proposal, of allowing the EBT
          processor 60 days to modify corrections to FSP issuance. EBT is an
          automated process and FNS has recommended to States and EBT
          processors to reconcile daily issuance activity on at least a weekly basis,
          therefore, we continue to believe that 30 days is more than sufficient time to
          make necessary corrections to issuance data without excessive FNS
          involvement.




USDA/OIG-A/27099-11-Hy                                                           Page iv
                                             TABLE OF CONTENTS

EXECUTIVE SUMMARY.............................................................................................................. i
   RESULTS IN BRIEF.................................................................................................................. i
   KEY RECOMMENDATIONS ................................................................................................. iii
   AGENCY RESPONSE............................................................................................................ iii
   OIG POSITION.........................................................................................................................iv
INTRODUCTION...........................................................................................................................1
   BACKGROUND........................................................................................................................1
   OBJECTIVES............................................................................................................................3
   SCOPE.......................................................................................................................................3
   METHODOLOGY .....................................................................................................................4
FINDINGS AND RECOMMENDATIONS..................................................................................6
CHAPTER 1 ..................................................................................................................................6
CONTROL ISSUES AFFECTING FNS’ REPORTING OF EBT BENEFIT DATA...............6
   FINDING NO. 1 .........................................................................................................................7
   RECOMMENDATION NO. 1 ...................................................................................................7
   FINDING NO. 2 .........................................................................................................................8
   RECOMMENDATION NO. 2 .................................................................................................10
   FINDING NO. 3 .......................................................................................................................10
   RECOMMENDATION NO. 3 .................................................................................................12
   RECOMMENDATION NO. 4 .................................................................................................12
CHAPTER 2 ................................................................................................................................14
EBT SYSTEM ACCESS CONTROLS NEED STRENGTHENING......................................14
   FINDING NO. 4 .......................................................................................................................14
   RECOMMENDATION NO. 5 .................................................................................................15
GENERAL COMMENTS ...........................................................................................................16
   EXHIBIT A - EBT PROJECT STATUS...............................................................................18
   EXHIBIT B – EBT COALITIONS AND ALLIANCES.........................................................19
   EXHIBIT C – OIG AUDITS COMPLETED ..........................................................................20


USDA/OIG-A/27099-11-Hy                                                                                                              Page v
   EXHIBIT D – FNS NATIONAL OFFICE RESPONSE TO DRAFT REPORT.................21
ABBREVIATIONS......................................................................................................................24




USDA/OIG-A/27099-11-Hy                                                                                                   Page vi
                             INTRODUCTION

                                       The U.S. Department of Agriculture (USDA)
        BACKGROUND                     Food and Nutrition Service (FNS) administers
                                       the Food Stamp Program (FSP) and Special
                                       Supplemental Nutrition Program for Women,
          Infants, and Children (WIC) program. Currently, FNS is pursuing electronic
          benefits transfer (EBT) implementation for the FSP nationwide, and in three
          States for the WIC program. There are an additional nine States pursuing
          EBT for the delivery of WIC program benefits for the near future.

           FNS administers the FSP through a Federal-State partnership. The FSP
           assists low-income households by increasing their ability to purchase food.
           Once a month, each participating household receives a benefit allotment
           determined by the number of family members, household income, and other
           related factors. Recipients can redeem the benefits for food items at
           authorized food retailers. The Federal Government pays the full cost of
           recipient benefits and shares the cost to administer the FSP with the States.

           The WIC program provides nutritious supplemental foods, nutrition
           education, and health care referrals at no cost to low-income, pregnant,
           postpartum, and breastfeeding women, infants, and children up to their fifth
           birthday, who are determined to be at nutritional risk. The WIC program
           makes grants to participating State agencies (SA) that in turn distribute the
           funds to participating local agencies. State and local agencies use WIC
           program funds to pay the costs of specified supplemental foods and
           administrative costs.

           In the past, the basic method of FSP benefit delivery was the food stamp
           coupon. The Food Stamp Act of 1977 as amended, Public Law 88-525,
           authorized FNS to experiment with alternative methods for the delivery of
           FSP benefits using electronic data processing. In the mid-1980's, a
           computerized version of food stamp delivery, the EBT system, was
           developed to replace paper coupons. Using a plastic card similar to a debit
           card, recipients gain access to benefits through point-of-sale terminals
           located at approved food retailers. The Personal Responsibility and Work
           Opportunity Reconciliation Act of 1996 (also referred to as the Welfare
           Reform Act), Public Law 104-193, required that by October 1, 2002, all
           States must implement an EBT system for FSP benefit delivery.




USDA/OIG-A/27099-11-Hy                                                          Page 1
           The FNS National Office was designated by the Federal EBT Task Force as
           the lead Federal agency for approving State EBT system applications and
           issuing EBT policy. FNS has established rules for the delivery of FSP
           benefits using EBT systems in Title 7, Code of Federal Regulations (CFR)
           §274.12 and for approving automated data processing systems in Title 7
           CFR §277.18. The FSP regulations specify functional areas to be
           addressed by the SA but do not establish a standardized system of internal
           controls. FNS' policy is to allow the States the flexibility to establish control
           systems that meet the needs of the individual States. No specific
           regulations have been established for the delivery of WIC program benefits
           using EBT systems, although, FNS has issued a policy on the approval and
           development of WIC program EBT systems.

           Generally, States award contracts to private sector companies to develop
           and operate its EBT systems. However, States remain financially liable to
           the Federal Government for the actions of its EBT processors. These
           companies are usually financial institutions or other organizations that
           already handle electronic funds transfer activities. As of January 2001, there
           were six prime EBT contractors plus one State who is acting as the prime
           EBT contractor (the contractor selected by the State to oversee all EBT
           functions; EBT processing functions may be performed by another
           company.) Sixty-five percent of all SAs have selected the same prime
           contractor, Citibank. (See exhibit B.)

           As of January 2001, 41 States and the District of Columbia used EBT
           systems to deliver FSP benefits, 38 of which operated statewide.
           Additionally, two of these States have operational off-line EBT systems.
           (See exhibit A.) Nationwide, there are four consortiums with 30 States
           participating. (See exhibit B.) Consortiums provide the States with a
           number of advantages, which include: smaller States gaining a better
           negotiating position by combining with larger States to obtain contract prices
           and options, and because of the commonality of the EBT contractor they can
           share concerns, problems, solutions, and lessons learned. Conversely,
           smaller States, in a consortium, may be at a disadvantage because they do
           not always have the bargaining power of a larger State, especially, for State
           specific issues.

           FNS oversight of the implementation of the State EBT system is performed
           by the assigned FSP account executive at the FNS National Office. Account
           executives are involved in the approval of State planning documents and
           contracts; and coordinate acceptance testing and implementation of the EBT
           system. The national office has contracted with Booz-Allen & Hamilton to
           provide technical assistance in reviewing individual State EBT system’s
           programming and testing. FNS National Office financial management is
           responsible for monitoring reconciliation activity as required by the Account

USDA/OIG-A/27099-11-Hy                                                              Page 2
           Management Agent (AMA) system contract.               This includes daily
           reconciliation of the Agency Financial Management System (AFMS) and
           AMA system data, and oversight of State's reconciliation of issuance and
           redemption data to EBT processor reported data. The regional offices are
           responsible for handling daily EBT operational issues with the States. This
           includes resolving problems related to card issuance, receipt of EBT data
           from processors, payment reconciliation with the Automated Standard
           Application for Payments (ASAP) system and oversight of State EBT
           operations.

           FNS' management of FSP funds involves several automated systems,
           including AFMS, AMA and ASAP systems. These systems support FSP
           data that is generated at the SA and the EBT processor. FNS established
           AFMS as its accounting system and the AMA system to improve the
           monitoring and management of FSP funds delivered via EBT. ASAP is a
           centralized system developed by the U.S. Department of the Treasury for
           the request and delivery of Federal funds, which FNS uses to pay FSP and
           WIC program benefits to States or their EBT contractors. Additionally, FNS
           also utilizes three other computer systems: the Store Tracking, Authorization
           and Redemption Subsystem to record and monitor FSP redemption data;
           the Retailer EBT Data Exchange (REDE), to facilitate the exchange of FSP
           retailer data between FNS and the EBT processors; and the Anti-fraud
           Locator for EBT Retailer Transactions system, to monitor retailers' EBT
           transactions for potential fraud activity in the FSP.

                                       The overall objective of this audit was to provide
         OBJECTIVES                    an evaluation of the adequacy of established
                                       controls and an assessment of whether the
                                       controls function as designed.         The audit
          (1) Identified internal controls established in key operational areas,
          (2) included tests to ensure controls are in place and operated as designed,
          and (3) provided an assessment on the adequacy of prescribed controls.
          The specific objectives at the FNS National Office were to determine
          whether: (1) Actions taken by FNS on prior nationwide EBT audit
          recommendations were adequate; (2) FNS approved waivers adversely
          affected EBT operations; (3) necessary changes to FNS regulations;
          policies, and forms have been completed and do not adversely affect EBT
          and non-EBT operations; and (4) FNS National and Regional Office
          oversight related to EBT is adequate.

                                         The audit was conducted in accordance with
            SCOPE                        generally accepted Government Auditing
                                         Standards. Fieldwork was performed at the
                                         FNS National Office in Alexandria, Virginia. As
           part of this nationwide audit, we also reviewed State EBT systems operating

USDA/OIG-A/27099-11-Hy                                                           Page 3
           in 14 States and issued individual reports. (See exhibit C.) The results of
           the individual State reports were rolled-up into this report. These States
           were judgmentally selected for audit. We based our selection on those
           States who had been operating an EBT system the longest or who had the
           highest EBT issuance within each Office of Inspector General (OIG) region.
           In Fiscal Year (FY) 1999, FSP benefits totaled almost $16 billion with
           approximately 60 percent of these benefits being delivered through EBT.
           Our sampled States delivered over $3.3 billion, or 36 percent of the total
           FSP benefits delivered via EBT in FY 1999. In FY 1999, WIC program
           benefits totaled $2.8 billion. Wyoming, the only State delivering WIC
           program EBT benefits in FY 1999, issued approximately $3.7 million in
           benefits. We conducted our national office fieldwork from February 1999
           through August 2000. Regional and State office fieldwork was performed
           during the period December 1995 through August 1999.

           We evaluated FNS National Office oversight and the administration and
           management of the EBT system. The audit also assessed the adequacy
           and operation of internal controls to ensure that controls were established in
           key operational areas in State EBT systems. The operational areas of State
           systems we reviewed included: reconciliations of FSP issuance data, help
           desk operations, fraud detection, use of EBT management reports, access
           to and security over the EBT system, and interstate transactions.

                                    To accomplish our audit objectives, we:
       METHODOLOGY                  (1) Interviewed responsible FNS, SAs, EBT
                                    processor, and Federal Reserve Bank (FRB)
                                    personnel; (2) reviewed applicable laws and
         regulations, FSP and WIC program EBT policies and procedures, and
         pertinent correspondence and management reports from FNS, SAs, and an
         EBT processor; and (3) reviewed AMA issuance and ASAP payment data
         reported to AFMS.

           At SAs we identified, tested, and assessed internal controls established in
           key operational areas, including: training; EBT cards and personal
           identification numbers; returned EBT cards; help desk operations; EBT and
           third-party processor contract provisions; use of point-of-sale terminals; fee
           structure; access to the EBT system; FSP benefit issuance and redemption
           processes; use of manual transactions; reconciliations between State, EBT
           processor, and Federal information systems; use of management reports;
           out-of-State transactions; expunging of FSP benefits; and the use of EBT
           benefits in group living arrangements.




USDA/OIG-A/27099-11-Hy                                                           Page 4
           Overall, EBT systems are functioning as prescribed in 7 CFR §274.12. EBT
           system management deficiencies were noted in the individual State reports
           in the following areas: EBT security, access, separation of duties, FSP
           issuance data, oversight, and system design. In all of these areas except for
           system access and errors in reporting issuance data the weaknesses were
           State specific and would not require FNS to revise or establish procedures
           or processes.




USDA/OIG-A/27099-11-Hy                                                          Page 5
           FINDINGS AND RECOMMENDATIONS


  CHAPTER 1       CONTROL ISSUES AFFECTING FNS’ REPORTING OF EBT
                  BENEFIT DATA


           Actions taken by FNS on the prior nationwide EBT audit recommendations,
           Monitoring of the EBT System Development and Implementation, Evaluation
           No. 27801-03-Hy, dated September 1996, were generally adequate. FNS
           approved waivers and made necessary changes to FNS policies and forms
           to facilitate implementation of EBT. To address, in part, continuing problems
           related to issuance data reported to FNS that were identified in prior OIG
           audit reports, FNS implemented in FY 1999, EBT reconciliation guidance for
           SAs. This guidance will help FNS ensure that data included in their financial
           statements is supported and reliable.

           In September 1997 we issued a report, “The Implementation of the AMA
           System, Audit No. 27099-04-Hy, which noted that FNS’ AMA system design
           provided inaccurate budgetary accounting because it allowed prior fiscal
           year funds to be used for current year expenditures. We reported that FNS
           violated appropriation law by reporting the use of FY 1996 appropriations for
           FY 1997 expenses. The AMA system supports management of FSP
           benefits delivered by State EBT systems and is operated by the FRB. FNS
           properly records obligations in the year they are issued against the current
           year’s appropriation. However, EBT processors report and the AMA system
           records expenditures (redemptions), by posting them against the prior year’s
           obligations until they are depleted and then against the current year’s
           obligations, regardless of what fiscal year’s obligation they actually relate to.
           As a result, FNS must perform a manual calculation to properly reflect
           outstanding obligations at fiscal year end. FNS stated changes to the
           existing States EBT and AMA systems would be too costly and instead they
           would propose language in the FY 1999 appropriation bill that would permit
           the agency to fully liquidate prior year’s FSP obligations before charging
           expenditures to the current year, similar to food stamp coupons, which lose
           their identify as to fiscal year of issuance. However, EBT through the AMA
           system, provides FNS with proper funds control capability; benefit issuance
           and redemption can be tracked by fiscal year of issuance. In the interim,
           FNS and OIG agreed that FNS would perform a manual calculation to
           accurately report EBT costs incurred in the current year. FNS was
           unsuccessful in incorporating language into the Food Stamp Act to exempt
           them from being required to record EBT FSP benefit costs against the year

USDA/OIG-A/27099-11-Hy                                                              Page 6
                      of obligation. In our FY 1999 FNS Financial Statements Audit Report No.
                      27401-17-Hy, dated February 2000, we reported that corrective actions have
                      not been completed and the problem continues to exist. We recommended
                      that FNS conduct a cost-benefit analysis to determine whether AMA and
                      State EBT systems enhancements would be feasible and continue to
                      perform the manual calculation if system enhancements cannot be
                      implemented.

                                         Obligations at fiscal year end are not accurately
        FINDING NO. 1                    reflected in FNS’ accounting records because
                                         FNS’ methodology for reporting redemptions is
    FISCAL YEAR INTEGRITY                flawed. FNS reduces the current year’s food
    CALCULATION FOR FSP                  stamp issuance by the amount of benefits
EXPENDITURE REPORTING NEEDS reported by States as expunged. As a result,
         MODIFICATION                    current year’s obligations of food stamp benefits
                                         are understated and prior year’s obligations
                                         remain in the accounting system when they are
           no longer available to recipients.

                      FNS accounts for the expungement of benefits incorrectly. EBT benefits are
                      required to be expunged when they have not been accessed by recipients
                      within the required timeframes and are no longer available for use. FNS
                      records all reported expunged benefits against the current year’s obligation,
                      rather than the actual obligation. In FY 1999, more than $61.7 million or
                      almost one percent of total FY 1998 EBT issuance was expunged against
                      current benefits rather than prior year’s outstanding obligations. FNS
                      regulations require the SA to expunge benefits that have not been accessed
                      by the household after a period of one year.1 However, 14 States, which
                      operate on-line systems, have approved waivers that allow them to expunge
                      benefits less than a year after issuance.           These States reported
                      approximately 16 percent or $9.9 million of the total amount of benefits
                      expunged in FY 1999. In addition, the two States, Ohio and Wyoming, who
                      operate off-line systems expunge benefits after 3 months. Off-line benefits
                      not posted to an EBT card expire similar to an ATP card. By using the
                      current methodology, prior year’s obligations remain in FNS’ accounting
                      system even when they are no longer available for use by the recipient.
                      Benefits expunged should be recorded against the oldest outstanding
                      obligations remaining in AFMS.

                                                         Modify the existing manual fiscal year integrity
      RECOMMENDATION NO. 1                               calculation to ensure that expungements are
                                                         posted against the oldest remaining fiscal year
                                                         obligation.

1
    7 CFR Part 274.12(f)(7)(ii), dated January 1, 1996



USDA/OIG-A/27099-11-Hy                                                                           Page 7
           FNS Response

           FNS concurs with this recommendation. FNS has modified the existing
           manual fiscal year integrity calculation, effective September 30, 2000. The
           calculation for FY’s 1999 and 2000 now applies expunged benefits against
           the oldest remaining fiscal year obligation. Additionally, FNS is continuing to
           pursue the incorporation of language into the Food Stamp Act that would
           exempt FNS from recording EBT FSP benefit costs against the year of
           obligation. If they are successful, this change will take effect in FY 2002.

           OIG Position

           We concur with FNS’ proposed management decision.

                                    States have not always reported the proper
       FINDING NO. 2                amount of expunged food stamp benefits within
                                    the required timeframes nor has FNS
   OVERSIGHT OF REPORTED            adequately monitored expungement data for
  EXPUNGED BENEFITS NEEDS           reasonableness. We identified 22 States who
        IMPROVEMENT                 reported an unreasonable amount or no
                                    expunged FSP benefits in FY 1999. EBT
                                    processors reported more than $61.7 million of
          State expunged FSP benefits through the AMA system to FNS in FY 1999.
          Expungement data reduces obligations recorded in FNS’ accounting
          system, AFMS. As a result, the FSP FY 1998 obligations balance, as of
          September 30, 1999, in FNS’ accounting system was overstated by
          $2.5 million.

           Food stamp regulations require States to expunge benefits that have not
           been accessed for at least one year, unless a waiver has been approved.
           FNS has approved waivers allowing 14 States, who operate on-line EBT
           systems to expunge benefits within a shorter time period, 3 to 9 months.
           Additionally, EBT processors use different approaches to expunge benefits.
           For example, some EBT processors only expunge benefit amounts that
           have not been accessed for the authorized period, while two EBT
           processors, Citibank and Transactive, expunge all benefits in a recipient
           account when all or part of the balance has not been accessed for the
           authorized period. The States who use these two processors must have a
           system in place to track those benefits still eligible for use if a recipient
           requests reinstatement. We will be evaluating this tracking process in
           subsequent State EBT audits.

           Based on historical knowledge, FNS has determined that approximately one
           percent of all FSP benefits are not redeemed. We expected reported
           expungement amounts to fall into the range of one-half to one and one-half

USDA/OIG-A/27099-11-Hy                                                            Page 8
                      percent of total FSP benefits issued. Using the above indicated percentage
                      range, we compared FY 1998 FSP benefit issuance data to FY 1999
                      expunged benefit data and identified several States who reported an
                      unreasonable amount of expunged benefits or reported no expunged
                      benefits in FY 1999. Included in this assessment were all States who issued
                      benefits in FY 1999, five of whom we did not expect any benefits to be
                      expunged because they were not operating an EBT system for at least one
                      year. We identified twelve States who understated expungement by almost
                      $15 million (two who did not report expunged benefits and the other ten who
                      reported an inadequate amount), while an additional ten States over
                      reported expunged benefits by more than $17.5 million. Of the two States
                      that did not expunge benefits in FY 1999, only one has begun to report
                      expungements in FY 2000.


                                                                                                                                                Percentage of Expunged Food Stamp Benefits
                                                                                                                                                       Reported in AMA for FY 1999

                      12
                    11.5
                      11
                    10.5
                      10
                     9.5
                       9
                     8.5
                       8
                     7.5
       PERCENTAGE




                       7
                     6.5
                       6
                     5.5
                       5
                     4.5
                       4
                     3.5
                       3
                     2.5
                       2
                     1.5
                       1
                     0.5
                       0
                           Alabama
                                     Alaska
                                              Arizona
                                                        Arkansas
                                                                   California
                                                                                Colorado
                                                                                           Connecticut
                                                                                                         Dist of Columbia
                                                                                                                            Florida
                                                                                                                                      Georgia
                                                                                                                                                Hawaii
                                                                                                                                                         Idaho
                                                                                                                                                                 Illinois
                                                                                                                                                                            Kansas
                                                                                                                                                                                     Kentucky 1
                                                                                                                                                                                                  Louisiana
                                                                                                                                                                                                              Maryland
                                                                                                                                                                                                                         Massachusetts
                                                                                                                                                                                                                                         Minnesota
                                                                                                                                                                                                                                                     Missouri
                                                                                                                                                                                                                                                                New Jersey
                                                                                                                                                                                                                                                                             New Mexico
                                                                                                                                                                                                                                                                                          New York 1
                                                                                                                                                                                                                                                                                                       North Carolina
                                                                                                                                                                                                                                                                                                                        North Dakota
                                                                                                                                                                                                                                                                                                                                       Ohio
                                                                                                                                                                                                                                                                                                                                              Oklahoma
                                                                                                                                                                                                                                                                                                                                                         Oregon
                                                                                                                                                                                                                                                                                                                                                                  Pennsylvania
                                                                                                                                                                                                                                                                                                                                                                                 Rhode Island
                                                                                                                                                                                                                                                                                                                                                                                                South Carolina
                                                                                                                                                                                                                                                                                                                                                                                                                 South Dakota
                                                                                                                                                                                                                                                                                                                                                                                                                                Tennesee 1
                                                                                                                                                                                                                                                                                                                                                                                                                                             Texas
                                                                                                                                                                                                                                                                                                                                                                                                                                                     Utah
                                                                                                                                                                                                                                                                                                                                                                                                                                                            Vermont
                                                                                                                                                                                                                                                                                                                                                                                                                                                                      Washington 1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Wisconsin 1
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   Wyoming




                                                                                                                                                                                                                                         STATE


                                                                                       1 - State was not expected to have expunged FSP benefits because they were in operation less than one year.



                      FNS regulations require State agencies to expunge benefits that are not
                      accessed by the household after a period of one year unless a waiver is

USDA/OIG-A/27099-11-Hy                                                                                                                                                                                                                                                                                                                                                                                                                                      Page 9
                      approved for a shorter duration. 2 FNS officials stated that they did not
                      review reported expunged benefits for reasonableness or ensure that the
                      State or its EBT processor was expunging FSP benefits.

                                                    Implement a system to review reported
      RECOMMENDATION NO. 2                          expungement data for reasonableness.


                      FNS Response

                      FNS concurs with this recommendation. FNS will evaluate monthly AMA
                      summary data for each State agency to track and monitor reported
                      expungements for reasonableness. They will contact States whose
                      expungement patterns fall outside the one-half to one and one-half percent
                      of total EBT FSP benefits issued to determine the circumstances
                      surrounding their expungement pattern. FNS will take the appropriate action
                      to correct any deficiencies with the State agency. FNS is currently
                      developing internal procedures for this systematic review.           These
                      procedures will be implemented by February 1, 2001 and will be retroactive
                      for expungement activity beginning October 1, 2000.

                      OIG Position

                      We concur with FNS’ proposed management decision.

                                       FNS implemented batch processing to minimize
        FINDING NO. 3                  discrepancies between State issuance data and
                                       AMA system data. These discrepancies were
TIMEFRAMES AND CONTROLS FOR caused by keypunch errors, as well as untimely
 EBT PROCESSOR ADJUSTMENTS             entry of daily issuance data and other
      NEED IMPROVEMENT                 processor adjustments. However, this process
                                       does not correct a system vulnerability we
                                       previously reported that allows the EBT
           processor the ability to make unauthorized adjustments to State issuance
           data.    We reported this control weakness in our prior audit, The
           Implementation of the AMA System, Audit No. 27099-04-Hy, as well as prior
           FNS financial statements audits. In addition, the EBT processor has an
           excessive amount of time to make corrections to previously reported
           issuance data, increasing system vulnerability. FNS policy allows States to
           report corrections to EBT issuance for 90 days, the same time period
           allowed for food coupons. As a result, EBT processors can enter issuance
           information in the AMA system without State knowledge or approval and
           gain access to a larger amount of Federal funds than authorized by the
           State.
2
    7 CFR 274.12(f)(7)(ii), dated January 1, 1996

USDA/OIG-A/27099-11-Hy                                                                  Page 10
           We reported in the prior AMA report that the AMA system design permits the
           EBT processors to adjust previously submitted issuance information without
           obtaining State approval. During our subsequent State EBT audits we
           identified one EBT processor who made at least four adjustments to FSP
           issuance data in two States, totaling about $1.7 million, in FYs 1998 and
           1999 without obtaining prior approval from FNS or the SA.

           Beginning in May 1999, States are required to periodically perform a
           reconciliation of daily issuance activity reported to the EBT processor and
           AMA systems. FNS recommends that this reconciliation be performed at
           least weekly. However, this reconciliation does not prevent unauthorized
           adjustments from being posted to the AMA system but it will timely identify
           any unauthorized adjustments after the fact.

           The Joint Financial Management Improvement Program’s (JFMIP ) Core
           Financial System Requirements, dated February 1999, established standard
           requirements for a Federal agency’s integrated financial management
           system. This includes security, internal controls, data stewardship, and
           system architecture elements. JFMIP is a joint and cooperative undertaking
           within the Federal government to improve financial management practices in
           government.

           As a result of our AMA system audit, FNS agreed to implement a batch-
           processing enhancement to the AMA system as the first step in eliminating
           the need for entering data on-line. Also, batch processing will significantly
           minimize the need for entering backdated issuance (issuance that is posted
           after the effective date). Batch processing is where batches of transactions
           are accumulated and processed as a group, electronically. Currently, batch
           processing has been implemented by three of the four largest EBT
           processors in 34 SAs, representing 78 percent of total EBT issuance in
           FY 2000. Eight States have not implemented batch processing: Two States
           utilize Transactive, an EBT processor who is leaving the EBT arena; three
           States who utilize an older platform at Citibank; and three States who are
           still deciding whether to implement batch processing.

           Batch processing does not prevent the EBT processor from entering
           issuance data into AMA without the State’s knowledge or approval. It
           minimizes erroneous data being entered into the AMA system but does not
           prevent processor-initiated adjustments. FNS proposed to amend the AMA
           system design, as a result of our prior AMA audit, to prohibit the entry of
           processor-initiated manual adjustments without prior State approval. At the
           exit conference, FNS officials informed OIG that this enhancement is
           expected to be implemented in January 2001.



USDA/OIG-A/27099-11-Hy                                                         Page 11
           The timeframe allowed by FNS policy for States and the EBT processors to
           report corrections to EBT issuance is excessive and also increases the
           systems’ vulnerability for error. EBT processors can report corrections to
           issuance up to 90 days, without prior approval from FNS or the SA. This
           appears to be an excessive time period. This policy is also applicable to the
           issuance of food coupons. In the coupon environment, 90 days was a
           reasonable length of time because issuance information had to be collected
           from numerous field sites and then the data had to be compiled and verified
           by the State, all of which took an extensive amount of time. EBT is an
           automated process and a reconciliation of daily issuance is required to be
           performed. Based on our review of AMA reported issuance data,
           corrections are generally made within the next calendar month. States and
           EBT processors should be required to submit corrections of FSP issuance
           data within a maximum of 30 days after the reporting month ends.

                                       Expedite     the   implementation     of      an
  RECOMMENDATION NO. 3                 enhancement to AMA that requires prior
                                       approval by the State of all processor-initiated
                                       adjustments.
           FNS Response

           FNS concurs with this recommendation. We have tasked the FRB to modify
           its AMA system to require prior approval by the State agency of all
           processor-initiated adjustments that are not processed via the batch
           process.    This enhancement is scheduled to be implemented on
           January 1, 2001.

           OIG Position

           We concur with FNS’ proposed management decision.

                                       Modify the time period, to a maximum of
  RECOMMENDATION NO. 4                 30 days, States and EBT processors have for
                                       making corrections to FSP issuance data.

           FNS Response

           FNS concurs with the recommendation; however, the switch to “batch”
           issuance has extended the time many State agencies need to reconcile.
           Although State agencies continue to reconcile daily activity, many State
           agencies need several days worth of issuance activity from the EBT
           processor to validate against issuance data on the State agencies’ systems.
           The main reason for this is that “batch” issuances are often spread over
           many days. In some instances, issuances may be spread 20 days or more.



USDA/OIG-A/27099-11-Hy                                                         Page 12
           FNS requested that the maximum be reduced to 60 days, as State agencies
           and EBT processors will need an appropriate amount of time to make
           adjustments, if and when, variances are noted. If FNS were to reduce the
           maximum to 30 days, the level of FNS involvement in routine adjustments
           would most likely increase tremendously.          We prefer to leave this
           responsibility with the State agencies, and continue to focus our involvement
           on the “exception basis.”

           OIG Position

           We do not agree with FNS’ proposed corrective action. Timely reporting of
           issuance adjustments is critical to FNS’ financial statements reporting
           process. Since EBT is an automated process and FNS has recommended
           that States and the EBT processor reconcile daily issuance activity on at
           least a weekly basis, we continue to believe that 30 days after the month
           ends is more than sufficient time to make necessary corrections without
           significantly increasing FNS involvement.             Additionally, FNS EBT
           reconciliation guidance procedures issued in FY 1999, state that on a daily
           basis the State should ensure that the EBT processor and the State
           issuance files match, and rejected records, and unapplied benefits (benefits
           that cannot be matched to an active account) that are placed in a pending
           file are reported by the EBT processor on a daily basis to the State. If this
           information is provided timely, reconciliation of daily issuance activity should
           be readily performed. To reach management decision FNS needs to
           provide documented data that supports the need for a 60-day period.




USDA/OIG-A/27099-11-Hy                                                           Page 13
  CHAPTER 2       EBT SYSTEM ACCESS CONTROLS NEED STRENGTHENING


                                      Procedures for reviewing access to State EBT
        FINDING NO. 4                 systems continue to need strengthening; this
                                      problem was also identified in the prior
                                      nationwide    EBT     report,        Evaluation
           No. 27801-03-Hy. FNS’ corrective actions were not effective to address this
           system control weakness. User’s last access to the system had not been
           adequately monitored nor was terminated employees’ access to the EBT
           system always removed. As a result, unauthorized access to FSP benefits
           may not be prevented or detected.

           As a part of State EBT system audits we evaluated certification standards for
           handling sensitive data, securing the confidentiality of recipient data, pre-
           employment screening of staff operating the EBT system, rules of conduct
           and training for handling privacy data, as well as procedures followed for
           authorizing and reviewing requests for access, and periodically reviewing
           the need for continued access. We also reviewed and assessed Statement
           of Auditing Standards (SAS) 70, Processing of Transactions by Service
           Organizations, reports to identify control weaknesses and subsequent
           corrective actions at the EBT processor.

           We reported in the prior nationwide EBT report that EBT system access
           procedures needed strengthening.           In response to our audit
           recommendation FNS issued instructions, in March 1997, to SAs. The
           instructions included limiting access to the EBT system, division of
           responsibilities among those with access, and periodic review of EBT
           access. These instructions were only for the States to consider (emphasis
           added) when implementing access controls. Since issuance of the previous
           nationwide EBT report, OIG has reported that seven additional States’
           controls over access to the EBT system needed improvement.

           In many instances there was no periodic review of EBT system users to
           determine whether access was still needed. Additionally, login IDs for
           terminated employees were not deleted from the EBT system. Individuals
           had access to the system that were either no longer employed by the SA or
           whose duties had changed and who had no reason for continued access.
           We identified during our State EBT audits, more than 180 individuals whose
           access to State EBT systems should have been removed. We did not,
           however, identify any unauthorized access. We also noted that in some
           cases this occurred because States were not being provided with a report,
           as required by the EBT contracts, which showed the last system access
           date for each authorized user.


USDA/OIG-A/27099-11-Hy                                                         Page 14
           FNS regulations state that the SA is responsible for protecting equipment
           used in food stamp data processing systems from unauthorized use.
           Regulations also require the SA to establish appropriate procedures to
           protect FSP data and equipment from theft and unauthorized use but they
           do not specifically require the SA to periodically review system access.

                                       Require SAs to periodically review system
  RECOMMENDATION NO. 5                 access to identify those individuals who no
                                       longer have a need and immediately delete
                                       their access.
           FNS Response

           FNS does not concur with this recommendation. FNS does not believe
           regulating down to the level of periodic log-on ID reviews is necessary or
           appropriate. Current regulations require procedures be established and
           followed in the area of system access. FNS believes that during EBT
           implementation access needs may be overestimated and then not reviewed
           until operations are Statewide, and EBT security is fully absorbed into the
           overall State agency security program. With the responsibilities for security
           shared between EBT and State agency security managers, there may be
           temporary failures to address details. FNS believes all of these factors
           contribute to State agencies failing to perfectly limit EBT system access.

           For management decision, FNS proposes to write individually to State EBT
           managers, with copies to the State FSP Directors, by January 31, 2001.
           Their letters will direct the EBT managers to tighten existing controls over
           EBT access by conducting at least semiannual reviews of employees with
           EBT access to determine if such access continues to be needed. FNS will
           also advise EBT managers to consult with their State security managers
           about access reviews of their EBT systems to be certain about roles,
           procedures, and reports. In addition, FNS will add the periodic access
           reviews as an agenda item at their next Regional EBT Coordinator
           conference call which is currently scheduled for January 4, 2001. FNS will
           have the coordinators plan to add this issue to all Regional EBT Users’
           Group meetings held during FY 2001.

           OIG Position

           We agree with FNS’ proposed management decision.




USDA/OIG-A/27099-11-Hy                                                         Page 15
                       GENERAL COMMENTS

           Implementation of EBT in the WIC program continues to expand. During
           FY 2000, one State, Wyoming, was completing migration to a statewide EBT
           system for both FSP and the WIC program. Another two States were
           piloting an EBT system for the delivery of WIC program benefits, while an
           additional nine States were in various stages of planning the implementation
           of an EBT system for delivering WIC program benefits. FNS, however, has
           not established specific regulations for the delivery of WIC program benefits
           using an EBT system. FNS has issued a policy on the approval
           requirements for State development and implementation of EBT systems for
           the WIC program. This policy does not establish rules for the delivery of
           WIC program benefits nor system requirements. It addresses the agency’s
           EBT vision for the WIC program, the need to partner with other programs,
           funding for EBT systems, EBT system approval policy, and EBT system
           functional guidelines. Proposed WIC program regulations for food delivery
           systems recognizes that FNS needs to modify regulatory provisions as EBT
           continues to expand nationwide.

           The Administrative Procedures Act of 1946, as revised, requires agencies to
           follow certain procedures when issuing guidance, rules, or required
           procedures to be followed by a third-party. This includes rules designed to
           implement, interpret, or prescribe law or policy or describe the organization,
           procedure, or practice requirements of an agency.

           FNS has not published regulations for States to follow in implementing an
           EBT system for the delivery of WIC program benefits because they believe
           existing program regulations are sufficient. EBT is a method of benefit
           delivery and FNS believes sufficient program requirements are already
           outlined in the regulations regarding benefit delivery. Also, they have issued
           a policy memorandum that they believe provides the necessary information
           for the States to follow when implementing an EBT system. Additionally,
           FNS does not want to regulate a technical process.

           Informal discussions with the Office of General Counsel staff disclosed that if
           an agency is implementing a new aspect of a program and the rights and
           obligations of third-parties are impacted, a fee is charged, or the third-party
           must submit certain documents, then there is substantive impact and the
           agency should probably provide notice of the policy or regulations for public
           comment. Policy does not have the force and effect of law and would not be
           enforceable through the courts. If FNS is only prescribing policy and they
           are only making a policy statement (which OGC indicated FNS is most likely

USDA/OIG-A/27099-11-Hy                                                           Page 16
           doing), then a regulation would not be required. However, the best solution
           is for FNS to issue regulations that address what the State plan should
           include and what FNS will approve.

           We suggest FNS begin the process to develop program regulations that
           spell-out the SA requirements for implementing an EBT system for the
           delivery of WIC program benefits, as they have for the FSP, so that SAs
           know specifically what is required.

           In their response to our official draft report, FNS believes the above
           suggestion is premature considering the WIC program currently has only
           three operational EBT pilot systems. At the present time, they do not believe
           FNS has sufficient knowledge concerning needed system requirements to
           develop regulations for an evolving system whose needs are not yet fully
           known. During their continuing course of pilot implementation and
           evaluation, FNS will determine if EBT is a feasible and viable alternative for
           WIC program benefit delivery. As the future of WIC program EBT becomes
           more defined, FNS will continue to evaluate the need to regulate the
           electronic delivery of WIC program benefits. We continue to believe that
           FNS needs to begin developing program regulations, as this process is a
           lengthy one, in order to ensure that States will not implement EBT systems
           that may not meet regulatory requirements.




USDA/OIG-A/27099-11-Hy                                                          Page 17
                    EXHIBIT A - EBT PROJECT STATUS
                             JANUARY 2001

 •   Currently thirty-nine States and the District of Columbia use on-line EBT
     systems to deliver FSP benefits, 36 systems including the District of Columbia
     are statewide:
     o Alabama – Statewide                   o Michigan – expanding Statewide
     o Alaska – Statewide                    o Missouri – Statewide
     o Arizona – Statewide                   o New Hampshire – Statewide
     o Arkansas – Statewide                  o New Jersey – Statewide
     o California - San Bernadino and        o New Mexico – Statewide
          San Diego Counties
     o Colorado – Statewide                  o New York – New York City
     o Connecticut – Statewide               o North Carolina – Statewide
     o District of Columbia – Districtwide   o North Dakota – Statewide
     o Florida – Statewide                   o Oklahoma – Statewide
     o Georgia – Statewide                   o Oregon – Statewide
     o Hawaii – Statewide                    o Pennsylvania – Statewide
     o Idaho – Statewide                     o Rhode Island – Statewide
     o Illinois – Statewide                  o South Carolina – Statewide
     o Iowa - Linn County (Cedar             o South Dakota – Statewide
          Rapids)
     o Kansas – Statewide                    o Tennessee – Statewide
     o Kentucky – Statewide                  o Texas – Statewide
     o Louisiana – Statewide                 o Utah – Statewide
     o Maryland – Statewide                  o Vermont – Statewide
     o Massachusetts – Statewide             o Washington – Statewide
     o Minnesota – Statewide                 o Wisconsin – Statewide
 •   Two States have operational off-line EBT systems:
     o Ohio - Statewide
     o Wyoming – FSP Statewide, WIC expanding Statewide




USDA/OIG-A/27099-11-Hy                                                     Page 18
                       EXHIBIT B – EBT COALITIONS AND ALLIANCES
                                                        JANUARY 2001

                  COALITION AND ALLIANCE STATES
                          PRIME
       NAME           CONTRACTOR                    STATES
NORTHEAST COALITION       Citibank    CT, ME, MA, NH, NY, RI, VT
                                                                              (NY also participates in Mid-Atlantic Coalition)
SOUTHERN ALLIANCE                                      Citibank               AL, AR, FL, GA, KY, MO, NC, TN, WV
                                                                              (WV also participates in Mid-Atlantic Coalition)
WESTERN ALLIANCE                                     Citibank                 AK, AZ, CO, HI, ID, NV, WA
                                                     Citibank                 MD, OH, PA, VA
       MID-ATLANTIC                                 Lockheed                  DC
    REGIONAL COALITION                               e Funds                  NJ
                                                  None Selected               DE

                STATES NOT IN A COALITION OR ALLIANCE
         NAME                PRIME                     STATES
                        CONTRACTOR
TWO-STATES COMBINED
(1 PROJECT)                 Citibank     ND, SD
                            Citibank     IN, MI, NM, SC, WI
                          Transactive    IL
                            e Funds      KS, LA, MN, OR, UT
     SINGLE STATES         Lockheed      OK
                         Iowa Transfer
                             System      IA
                           Self Prime
                           Contractor    TX
                          Stored Value   WY
                         None Selected   CA3, MS, MT, NE

                      PRIME CONTRACTOR                                        NUMBER OF STATES
TOTAL:                Citibank                                                        34
                      e Funds                                                          6
                      Lockheed                                                         2
                      Transactive                                                      1
                      Stored Value                                                     1
                      Iowa Transfer System                                             1
                      Self Prime Contractor                                            1
                      None Selected                                                    5

3
    Two counties in California are currently utilizing Deluxe Data as their processor, State expects to award a contract in
    February 2001.

USDA/OIG-A/27099-11-Hy                                                                                                        Page 19
                EXHIBIT C – OIG AUDITS COMPLETED
                    OCTOBER 1, 1996 – MARCH 31, 2000

STATE                    AUDIT NUMBER            ISSUANCE DATE
Alabama                  27601-05-At             September 1998
Colorado                 27801-04-KC             September 1999
Illinois                 27099-11-Ch             September 1997
Illinois                 27099-15-Ch             March 1999
Kansas                   27801-02-KC             November 1998
Louisiana                27801-05-Te             March 2000
Massachusetts            27099-06-Hy             March 1999
Minnesota                27099-18-Ch             September 1999
Missouri                 27801-03-KC             July 1999
New Mexico               27099-06-Te             March 1997
Ohio                     27099-06-Ch             December 1996
Oklahoma                 27801-03-Te             September 1998
Oregon                   27801-03-SF             September 1999
Wyoming                  27002-04-KC             January 1997




USDA/OIG-A/27099-11-Hy                                            Page 20
EXHIBIT D – FNS NATIONAL OFFICE RESPONSE TO DRAFT REPORT

                                                 Page 1 of 3




USDA/OIG-A/27099-11-Hy                             Page 21
                           Page 2 of 3




USDA/OIG-A/27099-0011-Hy     Page 22
                         Page 3 of 3




USDA/OIG-A/27099-11-Hy     Page 23
                                                  ABBREVIATIONS

AFMS
  Agency Financial Management System ....................................................................................... 3
AMA
  Account Management Agent .........................................................................................................ii
ASAP
  Automated Standard Application for Payments............................................................................ 3

CFR
  Code of Federal Regulations ..........................................................................................................i

EBT
  Electronic Benefits Transfer...........................................................................................................i

FNS
  Food and Nutrition Service ............................................................................................................i
FRB
  Federal Reserve Bank .................................................................................................................. 4
FSP
  Food Stamp Program .....................................................................................................................i
FY
  Fiscal Year .....................................................................................................................................i

JFMIP
  Joint Financial Management Improvement Program.................................................................. 11

OIG
  Office of Inspector General............................................................................................................i

REDE
  Retailer Electronic Data Exchange .................................................................................................i

SA
  State Agencies ...............................................................................................................................i
SAS
  Statement of Auditing Standards................................................................................................ 14

USDA
  U.S. Department of Agriculture ................................................................................................... 1

WIC
 Special Supplemental Nutrition Program for Women, Infants, and Children............................... iii

USDA/OIG-A/27099-11-Hy                                                                                                               Page 24
